No. 19-512
In The

Supreme (Eourl of ii\e
Anthony Robinson
Petitioner,
V.

Department of Education,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 10th day of March 2020, caused three copies of the Reply Brief in
Support of Petition for a Writ of Certiorari to be served via overnight mail and an
electronic version of the document to be transmitted via the Court’s electronic filing
system to:
NoelJ, Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

Ishan K. Bhabha

